No. 20-7357
IN THE SUPREME COURT OF THE UNITED STATES
RAYMOND EUGENE JOHNSON,
Petitioner,
-vsSTATE OF OKLAHOMA,
Respondent.
CERTIFICATE OF SERVICE
I, Jennifer L. Crabb, a member of the Bar of this Court, hereby certifies that 1
copy of the Brief in Opposition was emailed and mailed by first-class, postage prepaid
mail, to Counsel for the Petitioner:
Thomas Hird
Federal Public Defender’s Office
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
s/ JENNIFER L. CRABB
JENNIFER L. CRABB
ASSISTANT ATTORNEY GENERAL
Dated:

April 6, 2021

